SUPREME COURT OF THE UNITED STATES
Case No. 19-

manent nnn ee ener K

VIRGIL BREWER

Petitioner,
v
KRISTINA MYERS, INDIVIDUALLY, AND AS ADMINISTRATOR OF

THE ESTATE OF STEVEN P. MYERS, AND AS NATURAL PARENT
AND LEGAL GUARDAIN OF K.D.M., C.F.M. AND K.J.M.,

Respondents.
wast r tmnt nnn
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 5,464 words,
excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing
is true and correct.

Executed on November 19, 2019

Candice Best

Sworn to and subscribed before me

    

Elias Melendez
Notary Public State of New York
No. 24-4799661

Qualified in Kings County
Commission Expires Aug. 31, 2021

#292530
